 ECONOMIC DISTRIBUTION OF DISTILLED SPIRITS WITHIN DOD



Report No. 98-126                         April 30, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

AAFES                Army and Air Force Exchange Service
ASD(FMP)             Assistant Secretary of Defense (Force Management Policy)
GAO                  General Accounting Office
                     Morale, Welfare, and Recreation
NEXCOM               Navy Exchange Service Command
                               INSPECTOR    GENERAL
                              DEPARTMENT    OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON. VIRGINIA 22202




                                                                           April 30, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (FORCE
                 MANAGEMENT POLICY)
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on the Economic Distribution of Distilled Spirits Within DOD
         (Report No. 98-126)


       We are providing this audit report for your information and use. We performed
the audit in reponse to a request by the Assistant Secretary of Defense (Force
Management Policy). We considered management comments on a draft of this report
when preparing the fii report.

        Comments on the draft of this report conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Michael A. Joseph, Audit Program Director, email
 < mjoseph@dodig.osd.mil> , or Mr. Timothy J. Tonkovic, Audit Project Manager,
email < ttonkovic@dodig.osd. mil> , at (757) 766-2703. See Appendix F for the
report distribution. The audit team members are listed inside the back cover.




                                         Robert J. Lieberman
                                      Assistant Inspector General
                                              for Auditing
                            Of’ficeof the Inspector General, DoD

Report No. 98-126                                                             April 30, 1998
   (Project No. 7LF-5020)


            Economic Distribution of Distilled Spirits Within DOD


                                   Executive Summary

Introduction. Section 333 of the “National Defense Authorization Act for Fiscal Year
1996” required the Secretary of Defense to determine whether nonappropriated fund
instrumentalities provide the most economical method of distributing distilled spirits.
The section required the Secretary to use the Inspector General, DOD, to make these
determinations. The audit was requested in December 1996 by the Assistant Secretary
of Defense (Force Management Policy) based on requirements in the National Defense
Authorization Act for FY 1996.

The Army and Air Force Exchange Service (AAFES) and the Navy Exchange Service
Command (NEXCOM) operate 10 distribution centers in the continental United States
and Hawaii. The distribution centers are responsible for supplying military retail stores
with general merchandise, including distilled spirits. In FY 1996, worldwide distilled-
spirit retail sales for AAFES were about $171 million. NEXCOM worldwide
distilled-spirit and wine sales were about $75 million for the same time period. The
NEXCOM figure includes wine sales because information was not available to
distinguish between distilled-spirit and wine sales at NEXCOM military stores. We
calculated that shipping and handling costs for distilled spirits were about $1.8 million
for AAFES and about $1.4 million for NEXCOM.

Audit Objectives. The primary objective was to determine whether the military
exchange systems provided the most economical method of distributing distilled spirits.
The audit also evaluated whether using commercial distributors rather than military
exchange distribution centers for distribution of distilled spirits in certain states resulted
in direct or indirect taxation of nonappropriated fund instrumentalities. This report
discusses the first objective. In a subsequent report, we will discuss the second
objective related to taxation and the distribution of distilled spirits in Alaska, Hawaii,
North Carolina, and Washington.

Audit Results. In the aggregate, AAFES and NEXCOM purchased and distributed
distilled spirits economically. However, we identified instances where AAFES and
NEXCOM restricted competition from commercial distributors. As a result, AAFES
and NEXCOM may have incurred unnecessarily higher costs for distilled spirits,
thereby reducing profits for morale, welfare, and recreation programs that support
active-duty personnel. For details of the audit results, see Part I.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Force Management Policy) establish policy for AAFES and NEXCOM to
annually determine fair and accurate distilled-spirit case costs using all case cost
components. We also recommend that the Assistant Secretary require military store
managers or other purchasing authorities to use the case costs to competitively purchase
distilled spirits using best business decisions.

Management Comments. The Executive Director, Morale, Welfare, and Recreation
and Resale Activities in the Office of the Assistant Secretary of Defense (Force
Management Policy) concurred with the recommendation to establish policy for
AAFES and NEXCOM to annually determine fair and accurate distilled-spirit case
costs using all case cost components. The Executive Director also concurred with the
recommendation to establish policy requiring store managers or other purchasing
authorities to use those case costs to competitively purchase distilled spirits. The
Executive Director stated that the policies would be established by August 1, 1998.
See Part I for a summary of management comments and Part III for the complete text
of management comments.

Limitations. To determine whether AAFES and NEXCOM were purchasing distilled
spirits in the most economical manner, we obtained prices for distilled spirits from
commercial distributors. Those prices were obtained for one time period, and were not
based on a statistical sample. As a result, the price comparisons cited in this report
should not be used as a basis for determining whether the exchange systems should
distribute distilled spirits or make individual product line purchasing decisions. Any
such decisions should be based on updated per-case shipping and handling costs, as
recommended in this report.




                                           ii
Executive Summary                                                            i


Part I - Audit Results

        Introduction
        Audit Background
        Audit Objectives
        Distribution of Distilled Spirits

Part   II - Additional Information

        Appendix A. Audit Process
          Scope                                                             22
          Methodology                                                       22
        Appendix B. Summary of Prior Coverage                               25
        Appendix C. Inspector General, DOD, Analysis of the DOD Report to
                     Congress on the Distribution of Distilled Spirits      27
        Appendix D. Variables Affecting Case Cost Determinations            31
        Appendix E. Analysis of AAFES Case Cost Components                  33
        Appendix F. Report Distribution                                     35

Part   III - Management        Comments

        Office of the Assistant Secretary of Defense
           (Force Management Policy) Comments                               38
Part I - Audit Results
Introduction
     During FY 1987, the Navy and Marine Corps consolidated the operations of
     their military stores selling alcoholic beverages. The consolidation provided the
     Navy the opportunity to develop better purchasing controls and to obtain
     discounts accruing from volume purchases of alcoholic beverages. Benefits
     achievable through consolidation included improved convenience; reduced
     overhead costs; and increased earnings available to morale, welfare, and
     recreation (MWR) programs.

     In FY 1989, the House Committee on Armed Services issued a report on the
     National Defense Authorization Act (the Act). It stated that a report prepared
     by the Army and Air Force Exchange Service (AAFES) concluded that cost
     avoidances and revenue enhancements would occur if AAFES managed and
     operated Army and Air Force military stores selling alcoholic beverages. As a
     result of the AAFES report, the House Committee on Armed Services directed
     the transfer of all operations involved with the wholesale and retail sales of
     alcoholic beverages to AAFES to occur no later than October 1, 1988.

     AAFES and the Navy Exchange Service Command (NEXCOM) operate 10
     distribution centers for the distribution of merchandise to their military stores in
     the continental United States and overseas. Distilled spirits is one category of
     merchandise that is stored and distributed from the distribution centers. To
     distribute distilled spirits and other merchandise in the continental United States,
     AAFES maintains its own fleet of tractors and trailers. Both AAFES and
     NEXCOM also contract with commercial carriers for transportation of
     merchandise to military stores. The Marine Corps does not operate distribution
     centers, but maintains warehouses that are usually collocated with the military
     stores.



Audit Background
     The audit was requested in December 1996 by the Assistant Secretary of
     Defense (Force Management Policy) (ASD[FMP]), based on requirements set
     forth in Section 333 of the Act for FY 1996.

     Military Stores. Throughout this report we use the phrase military stores to
     refer to AAFES class VI alcoholic beverage stores and NEXCOM package
     stores, which sell distilled spirits. Also included in the phrase are shoppettes




                                          2
     and other AAFES and NEXCOM stores that sell alcoholic beverages, including
     distilled spirits. Alcoholic beverages sold in military stores are for consumption
     off the premises.

     Alcoholic Beverages and Distilled Spirits. Alcoholic beverages include beers,
     distilled spirits, and wines that contain one-half of 1 percent or more of alcohol
     by volume and which are fit for human consumption. Distilled spirits include
     alcoholic beverages obtained by distillation, such as brandy, gin, rum, and
     whiskey. Distilled spirits normally contain more than 21 percent of alcohol by
     volume.

     Business Year. AAFES and NEXCOM operate on a business year that starts
     on February 1st and ends on January 31st. Unless otherwise noted, all
     references to 1996 in the report are for the AAFES and NEXCOM 1996
     business year that ended January 31, 1997.



Audit Objectives
     The audit objectives were to determine whether the military exchange systems
     provided the most economical method of distributing distilled spirits. The audit
     also evaluated whether using commercial rather than military exchange
     distributors for the distribution of distilled spirits in certain states resulted in
     direct or indirect taxation of nonappropriated fund instrumentalities. This report
     discusses the first objective. We will discuss the second objective related to
     taxation and the distribution of distilled spirits in Alaska, Hawaii, North
     Carolina, and Washington in a subsequent report. See Appendix A for a
     discussion of the audit scope and methodology. See Appendix B for a summary
     of prior reports related to the audit objective.




                                          3
              Distribution               of Distilled Spirits
              AAFES purchased and distributed distilled spirits in an economical
              manner during its 1996 business year. Collectively, NEXCOM also
              purchased and distributed distilled spirits in an economical manner.’
              However, we identified instances where AAFES and NEXCOM
              restricted competition from commercial distributors because they did not
              have a fair and accurate method for determining the most economical
              source for obtaining distilled spirits.

              Specifically:

                      l    AAFES did not include and update all operating costs in the
                           “benchmark” price that it used to evaluate prices offered by
                           commercial distributors;

                      l    NEXCOM did not determine per-case costs for receiving,
                           warehousing, and transporting distilled spirits;

                      l    NEXCOM required military store managers to purchase
                           distilled spirits from NEXCOM distribution centers even if
                           other, lower cost sources were available; and

                      l    commercial distributor service levels were not considered in
                           purchasing decisions.

              As a result, AAFES and NEXCOM could not always make the best
              business decision when purchasing distilled spirits. Additionally,
              AAFES and NEXCOM distilled-spirit distribution decisions may have
              resulted in reduced profits for MWR programs that support active-duty
              personnel.


Criteria
      Title 10, United States Code, Section 2488 (10 U.S.C. 2488),
      “Nonappropriated Fund Instrumentalities, * states:

                  (a) the Secretary of Defense shall provide that:

                  1) C4wered alcoholic beverage purchases made for resale on a
                  military installation located in the United States shall be made from
                  the most competitive source, and distributed in the most economical
                  manner, price and other factors considered, except that


      %ollectively,   but not at every NEXCOM distribution center.


                                                 4
               2) in the case of malt beverages and wine, such purchases shall be
               made from, and delivery shall be accepted from, a source within the
               state in which the military installation concerned is located.

    The Act for FY 1996, Section 333, amended 10 U.S.C. 2488 and added the
    following subsection:

               In the case of covered alcoholic beverage purchases of distilled spirits,
               to determine whether a nonappropriated fund instrumentality of the
               Department of Defense provides the most economical method of
               distribution to package stores, the Secretary of Defense shall consider
               all components         of the distribution      costs   incurred  by the
               nonappropriated       fund instrumentality,    such as overhead costs
               (including      costs     associated   with      management,     logistics,
               administration,    depreciation, and utilities),    the costs of carrying
               inventory, and handling and distribution costs.

    After considering all components of distilled-spirit distribution costs, the Act for
    FY 1997 required DOD to compile and submit the following information
    regarding the purchasing and distribution of distilled spirits:

           l   the extent to which distilled spirits sold on military installations are
               distributed through the military retail distribution system or through
               commercial distributors;

           l   the monetary benefits of distributing distilled spirits through the
               military retail system; and

           l   the advantages and disadvantages of requiring distilled-spirit
               purchases to be made from within the state where the military
               installation is located.

    On December 24, 1996, DOD submitted the “Report on the Distribution of
    Distilled Spirits” (the Report) to Congress. The Report focused on comparing
    the economic impact of distributing distilled spirits through AAFES and
    NEXCOM distribution centers versus the impact of using commercial
    distributors.



Background
    There are three sources for purchasing distilled spirits in DOD: commercial
    distillers, commercial distributors, and state alcoholic beverage control boards.

    Commercial DWIIers. Distillers, such as Jim Beam Brands Co.; Heublein,
    Inc.; and Joseph E. Seagram and Sons, Inc., sell in bulk and normally do not
    distribute their products to individual retail outlets. AAFES, commercial

                                               5
Distribution   of Distiied   Spirits



       distributors, NEXCOM, and state alcoholic beverage control boards distribute
       the products to retail outlets through their own established distribution networks.

       Commercial      Distributors.    Distributors purchase, warehouse, and distribute
       distilled spirits to retail outlets in the state where they are located. The prices
       charged by in-state distributors include delivery, handling, and storage of
       distilled spirits. Those expenses are added to the base case cost of distilled
       spirits and result in a delivered case cost price that is paid by the retail outlet.
       As discussed later, distributors sometimes include other services such as
       stocking the product on store shelves and removing refuse. Distributors
       normally have exclusive rights to distribute specific commercial brands in their
       geographic area. In addition to distilled spirits, distributors also distribute beer
       and wine. Defense Appropriation Acts from the late 1980s to FY 1996 have
       required AAFES and NEXCOM operations in Alaska and Hawaii to purchase
       all distilled spirits from in-state distributors. We will address distilled-spirit
       distribution in those states in a separate report.

        State Alcoholic Beverage Control Boards.          AAFES and NEXCOM also
       purchase distilled spirits from state alcoholic beverage control boards. In
       “control” states, a state agency is responsible for procuring, warehousing, and
       distributing distilled spirits to retail outlets. Alcoholic beverage or liquor
       control boards govern 18 states and 1 county. In North Carolina, AAFES and
       NEXCOM have agreed to purchase all distilled spirits from the state alcoholic
       beverage control board and, in Washington, are required to purchase all distilled
       spirits from the alcoholic beverage control board. In the other 16 states and
       1 county, AAFES and NEXCOM have the option of purchasing distilled spirits
       from the alcoholic beverage control boards.

       AAFES Distribution Centers. AAFES operates five distribution centers that
       provide distilled spirits, general merchandise, and other products to AAFES
       military stores. The distribution centers in Newport News, Virginia, and Waco,
       Texas, are completely automated with computer-assisted conveyor-belt systems.
       Employees in the other distribution centers in Atlanta, Georgia; Hickam Air
       Force Base, Hawaii; and Oakland, California, manually retrieve products from
       storage locations and load delivery vehicles.

       NEXCOM Distribution       Centers. NEXCOM operates five distribution centers,
       located in Chino, California; Great Lakes, Illinois; Jacksonville, Florida;
       Norfolk, Virginia; and Pearl Harbor, Hawaii. The NEXCOM Pearl Harbor
       Distribution Center is located within 5 miles of the AAFES Hickam Air Force
       Base Distribution Center. The centers in Chino and Pearl Harbor are
       completely automated. The five distribution centers provide distilled spirits,
       general merchandise, and other products to their retail outlets.




                                             6
     Marine Corps. The Marine Corps Morale, Welfare, and Recreation Support
     Activity obtains general merchandise from AAFES and NEXCOM distribution
     centers and local commercial vendors.

     Distilled-Spirit   Purchasing Procedures.       Prior to the AAFES and NEXCOM
     distilled-spirit retail consolidations, military store managers purchased distilled
     spirits either from local commercial distributors or through consolidated buying
     arrangements with other military stores. Subsequent to the consolidation,
     AAFES military stores were required to order distilled spirits from AAFES
     distribution centers unless distributors could “meet or beat” AAFES distribution
     center prices. NEXCOM centralized distilled-spirit purchases and authorized
     military store managers to obtain distilled spirits from commercial distributors
     only if the particular distilled-spirit product was not stored in NEXCOM
     distribution centers.



Distribution Center Savings
     AAFES purchased and distributed distilled spirits economically during 1996.
     Collectively, NEXCOM purchased and distributed distilled spirits economically.
     We determined that AAFES saved about $3 million in 1996 by shipping and
     handling about 517,866 cases of distilled spirits instead of purchasing the
     distilled spirits from distributors or state alcoholic beverage control boards. We
     also determined that NEXCOM saved about $161,000 by shipping and handling
     about 235,495 cases of distilled spirits during the same time period. In the
     Report, AAFES did not calculate or report any savings resulting from in-house
     distribution of distilled spirits. NEXCOM calculated savings of $9.6 million;
     however, we determined that the amount was overstated by about $9.4 million.
     A detailed discussion of our analysis of AAFES and NEXCOM distribution
     center savings is in Appendix C.

     Our analysis of AAFES, commercial distributor, and NEXCOM cast prices for
     distilled spirits was not based on a statistical sample and should not be used as a
     basis for making distilled-spirit purchasing decisions. Our analysis of
     purchasing and distribution information for 1996 provides an indication that
     savings may be achievable from distribution center operations. Other factors
     that can influence determinations as to the most economical source for
     purchasing and distributing distilled spirits are discussed in Appendix D.

     Worldwide 1996 distilled-spirit retail sales for AAFES were about $171 million
     and distilled-spirit and wine sales were about $75 million for NEXCOM. The
     1996 operating costs for the five AAFES distributioncenters were about
     $86 million. About !§1.8 million of the $86 million was attributable to distilled



                                          7
     spirits. Operating costs for the five NEXCOM distribution centers were about
     $24 million during the same business year. Distribution costs attributable to
     distilled spirits and wine were about $1.4 million.



AAFES Method of Distributing Distilled Spirits
     AAFES restricted competition from commercial distributors because it did not
     have a fair and accurate method for determining the most economical source for
     obtaining distilled spirits. Specifically, it did not include or update all operating
     costs in the benchmark price that it used to evaluate offers from distributors.
     Examples of restricted competition are discussed later.

     AAFES Benchmark Price. AAFES develops and issues monthly price lists
     that military store managers use for making distilled-spirit purchasing decisions.
     The price list includes the per-case cost for distilled spirits carried in AAFES
     distribution centers, plus a $2.40 shipping and handling cost. The resulting
     benchmark cost is used by military store managers to compare and evaluate
     offers from commercial distributors. To sell distilled spirits to an AAFES
     military store, a distributor’s per-case cost, in most instances, has to meet or
     beat the benchmark cost provided in the AAFES price list.

     Origin of the Benchmark Price. The benchmark price originated in 1989
     when a major distiller proposed servicing military stores through its network of
     distributors for the case cost plus a $3.00 shipping and handling charge.
     AAFES made a counteroffer of the case cost plus $2.15 shipping and handling.
     The distiller accepted the counteroffer and the $2.15 shipping and handling was
     established as the distribution portion of the AAFES benchmark for evaluating
     offers from distributors.

    In August 1989, the General Accounting Office (GAO) began a review to
    determine whether the benchmark was based on an appropriate economic
    analysis and whether the estimated per-case shipping and handling cost was
    reliable for evaluating distribution offers from vendors. The GAO issued
    Report No. NSIAD-91-77, “Military Exchanges: Exchange Service
    Management of Army and Air Force Package Stores,” February 26, 1991,
    which concluded that AAFES had not completed an economic analysis before
    deciding to store and deliver distilled spirits through its distribution network and
    that the benchmark was inappropriate for evaluating distribution offers from
    other vendors. Although AAFES did not complete an economic analysis, it did
    raise the benchmark shipping and handling cost to $2.40 per case in 1992. The
    benchmark has not been updated since that time.




                                           8
                                                  Distribution of Distilled Spirits



Components of Distribution Costs. AAFES did not include all warehousing
and distribution costs when it determined its per-case shipping and handling
cost. The $2.40 shipping and handling cost did not include administrative and
management costs, inventory carrying costs, or transportation costs to and from
distribution centers. Using cost components such as administration,
depreciation, and inventory carrying costs in determining the most economic
source for obtaining distilled spirits is required by 10 U.S.C. 2488.

AAFES Industrial Engineering Studies. In 1992, AAFES completed
industrial engineering studies to determine the average time required to process
conveyable and non-conveyable cases of merchandise in its distribution centers.
The majority of distribution center cases are classified as conveyable cases
because they can be placed on automated conveyor systems within the
warehouse. Non-conveyable cases are too heavy or too large to fit on a
conveyor system and must be manually handled and loaded onto trailers.

AAFES annually updates conveyable and non-conveyable per-case costs using
the per-case processing times determined in 1992. The per-case shipping and
handling costs are based on allocated distribution center operating costs, except
for inventory carrying costs and out-bound transportation costs. Out-bound
transportation costs are separately allocated to the military store. The allocation
of operating costs per case is used as a basis for billing military stores for
warehousing and delivery services.

Recomputed Per-Case Shipping and Handling Cost. We determined that
distilled-spirit shipping and handling costs were between $3.10 and $4.06 per
case, depending on distribution center location. Distribution center operating
costs include depreciation, inventory carrying costs, operations, personnel, and
transportation. We computed AAFES distribution centers’ 1996 per-case
shipping and handling costs by dividing the total distribution center operating
costs by the number of cases shipped. For two automated distribution centers,
we divided distribution center operating costs attributable to conveyable cases
by the number of conveyable cases shipped.

We did not determine administration and management overhead costs
attributable to distilled spirits because we could not readily separate those costs
from other merchandise categories. We also did not determine the
administrative and management savings attributable to consolidated bill paying
and central&d management of bulk distilled-spirit purchases. Collectively, we
considered that the administration and management expenses and savings offset
each other. Table 1 compares the AAFES benchmark per-case cost for shipping
and handling to our computations.




                                     9
Distribution   of Distilled Spirits




       For an analysis of the case cost components attributable to AAFES distribution
       center operations, see Appendix E.

       Commercial     Distributor     Distilled-Spirit   Prices. For each distilled-spirit line
       item in the AAFES distribution centers, we compared distributor case costs to
       our computations and to the AAFES $2.40 benchmark. To determine
       distributor distilled-spirit prices, we developed a pricing survey of 592 line
       items. The 592 items represented various brands, manufacturers, and sixes of
       distilled spirits collectively warehoused by AAFES and NEXCOM during 1996.
       The pricing survey was sent to commercial distributors and representatives of
       state distributors in selected states. We requested that the distributors provide
       us a per-case cost for delivering any of the distilled spirits on the survey that
       they could supply to military stores in their area. From the 34 survey
       responses, we determined a distributor per-case cost for each line item in the
       survey. See Appendix A for a complete discussion on pricing surveys.

       We considered AAFES to have restricted competition when the distributor
       prices were between the AAFES case cost plus the $2.40 benchmark per-case
       shipping and handling cost and the AAFES case cost plus our recomputed
       shipping and handling cost. AAFES policy allowed the military store manager
       to purchase from a commercial distributor only if the distributor’s price was
       below the AAFES benchmark price.

       F%unples of Restricted Competition.         The Waco Distribution Center per-case
       shipping and handling cost was $3.34 for 1996. This is $.94 more per case than
       the AAFES $2.40 benchmark. We also compared the Waco Distribution
       Center’s actual per-case cost to distributor’s per-case costs reported on the
       pricing surveys. For 118 of the 389 surveyed distilled-spirit line items in the
       distribution center, at least one distributor in the Waco area offered a per-case



                                                10
                                                    Distribution of Distilled Spirits



cost between the AAFES benchmark cost and the actual case cost for the
distribution center. Table 2 shows specific examples where competition may
have been restricted.


                            Ttible2. Wa& l&&ionis% Per-c-   C&s
            :                                                       ‘.-.A&t&Cost for
                                                   ChtQwkedby        ,:. t&Waco
                              Benchmark cost on     C!omx&&al            Distribution
   ,.I&?&!          .Sh-B      AAFES Price J&t      Distributor             Center

  J&B ticotch       60’           $lI30.40            ;$130.98        :   $13L34

  Gibley’s            I2            69.42               70.05               70.36
  Gin

  Jim Beam          1l
                     753            64.11               6479                65.05

  Calvert           1.75            61.08               61.27               62.02
  Bxtsa

  Windsor            750            59.82               60.05               60.76
  Canadian

 750 nlilliliter bottle,
 $ liter both.
 I.75 liter bottle.




                                             11
                                 Table 3. Atlanta Region Wh$ Per-Case Costs
                                                                                                   ~Actualcostbm
                                                                         CastQuotedby   .:.             the Atlanta
                                                                                                         4 4    .
                                         )k+nuFNk          cost on        commercial
                  .,+.&               ‘..I:        ESP’.      I;‘t   ./J&&&&@.~
    ‘F-      . .. . .                 ..rn                                                    .:    z

  ChiGs      :           7x+
                          .’                       $ 182.58                $183.18                      s 183.28
  Regal             ..
  ::~&nnuuI ..          ‘750             :         -157.40           :       I5i.50                      ~158.10
  mw                     .‘.     .:           ..


  Cndian                 1.73’                       85.64                    85.68                        86.34:
  Club

   Bacafdi               1.75                        67.69                   68.22                         68.39
  -Light Rum

  Jim Beam               750                         64.11                   64.20                         64.81

  750 ~lliliter bottle.
  I .75 liter bottle.




Based on the costs shown in the tables, AAFES military store managers could
not make a best business decision when purchasing distilled spirits because the
$2.40 benchmark did not fairly represent actual per-case shipping and handling
costs.

AAF’ES Cost-Estimating Initiatives. AAFES took action during the audit to
refine its estimates for per-case costs of shipping and handling distilled spirits.
Specifically, in February 1997, AAFES performed time and motion studies at
its four distribution centers to determine the time it took to handle distilled
spirits. Time and motion studies are the analysis of the efficiency with which
an operation is performed.

The time and motion studies were used by AAFES to determine the time
required for well trained staff, working at a normal pace, to complete specific
tasks related to handling distilled spirits. Tasks included completing paperwork,
offloading the cases from the trailers, staging the cases for distribution center
storage, retrieving the cases from storage, and loading the cases onto a trailer.
The AAFES computation included a 40 percent factor that was added to the
estimate for employee breaks, fatigue, and other delays.

AAFES compared the February 1997 estimated time to handle distilled spirits to
1992 time and motion estimates of the average time to handle all conveyable
cases. The comparison yielded a factor (distilled-spirit handling time divided by

                                                             12
                                                          Distribution   of Distilled Spirits



the average handling time for conveyable cases) that was applied to actual
operating costs for each distribution center to compute the costs of shipping and
handling distilled spirits. Table 4 compares the AAFES computations to its
benchmark per-case cost for shipping and handling distilled spirits.


              .. T&e 4. AAFES I996 Per-Case Shippingsand%ndliqj          Costs
                                      AAFES         Benchmark Shipping
                            :       xh&atiog         and HandJ&@Cost        piffetence
  .
 ‘... : ..       .:::
  Atlad                         :    $2.16               $2.40:              $ WV
 N~Mews                                2.45’              2.40                    .M
 ‘oalrl?lnd                            2.06               2.40                   (.34)
 WacO                                  3.00               2.40                    A0


 he lUFES Hawaii Distribution Center is not shown because it is required to purchase
 distilled s&its onlv from in-state commetcial distributors,


Although we agree that time and motion studies are a valid methodology for
computing per-case costs, the AAFES comparison of 1997 handling time for
distilled spirits to the 1992 handling time for conveyable cases was not
appropriate. Documentation was not available at AAFES to support the 1992
estimates, therefore we could not validate the estimates, nor could we validate
that similar methodologies were used in preparing the estimates. In addition, by
comparing 1997 estimates to 1992 estimates, AAFES did not consider any
changes in the efficiency of the total system that may have resulted from events
such as business reengineering improvements, staff turnover and training,
equipment deterioration or upgrades, and relocation of commodities within the
warehouses. These factors led us to believe that the AAFES estimates were
unreliable. Therefore, we used case costs computed from the total number of
cases shipped and the total operating costs. We recognize that there are
limitations of this methodology, but it used consistent data and time frames for
all commodities and could be computed with readily available data. However,
even using the AAFES computed costs, there were incidents where AAFES
restricted competition, although not with the same frequency as with our cost
estimates.




                                               13
Distribution of Distiied Spirits




NEXCOM Distilled-Spirit Distribution
       NEXCOM restricted competition from commercial distributors because it did
       not have a fair and accurate method for determining the most economical source
       for obtaining distilled spirits. Specifically, it did not determine per-case
       shipping and handling costs for receiving, warehousing, and transporting
       distilled spirits and it required its store managers to purchase distilled spirits
       from in-house distribution centers, regardless of price. Examples of restricted
       competition are discussed later.

       Inspector General, DOD, Computation on NEXCOM Per-Case Shipping
       and Handling Cost. We obtained NEXCOM financial statements for four
       distribution centers to determine the total operating expenses for each center.
       The statements included expenses for depreciation, general operations,
       personnel, and transportation. We allocated operating costs based on the
       proportion of the dollar value of distilled spirits issued at cost to the total dollar
       value of all merchandise issued. We also calculated the inventory carrying costs
       for distilled spirits. We included wine in the inventory carrying cost calculation
       for the Chino Distribution Center. The Chino center was the only NEXCOM
       distribution center that ships and handles wine, and did not distinguish between
       wine and distilled-spirit sales on its financial statements. The resulting
       allocation of operating expenses and the inventory carrying costs attributable to
       wine and distilled spirits were then divided by the number of cases of distilled
       spirits and wine issued to determine a per-case shipping and handling cost.
       Because NEXCOM did not record the total number of cases issued per year by
       distribution center, we used NEXCOM merchandising reports and distribution
       center ordering reports to determine the number of cases of distilled spirits and
       wine that were issued.

       This methodology may overstate the shipping and handling costs attributable to
       distilled spirits, because the average case cost for distilled spirits is higher than
       the average cost for all commodity groups in the distribution center. A more
       accurate method would be to allocate costs based on a ratio of distilled-spirit
       cases to total cases. However, NEXCOM tracked the dollar value of issuances
       and not the number of issued cases. Table 5 shows how we arrived at the
       NEXCOM 1996 per-case shipping and handling costs for distilled spirits.




                                             14
                                                      Distribution      of Distilled Spirits




                  Table 5. NEXCOM 1996 Shippi* and i-I#dliaq Cosb
                                                    Numberof.:           . . Cqt
                                                   J--+$++~&               .:&r C&de
                                 h@w&@2
_p&._.                           ‘$499&3              54,423     I:          $-9.17.
:orerd~&                            1.8,006            1,487                  .?2:11
iJ&@e.                ...‘.i..    441;075             &9,4@                     -4.93
 &f&       .::.       ..           470,015            90,135.                   5.21
  ..
 !&& ~~~~~-&waii’&&ibutioQ         .Wter is not shown &auskthe        j’$aVyis f&pired to
 purdhse’diitilled spirkfiom inhte e~nnnilercialdistributch.
 h&d     on w.r c&lpntations.


We did not determine administration and management overhead costs
attributable to distilled spirits nor did we determine the administrative and
management savings attributable to consolidated bill paying and centralized
management of bulk distilled-spirit purchases. We considered the
administration and management expenses and savings to offset each other.

Chino Diiribution         Center. NEXCOM restricted competition to military
stores served by the Chino Distribution Center because it had not determined a
per-case shipping and handling cost and because of its restrictive purchasing
policies. The Chino Distribution Center per-case shipping and handling cost
was $9.17 during 1996. Distributor pricing surveys for 79 of the 327 surveyed
distilled-spirit line items in the distribution center showed that at least one
distributor in the region serviced by the Chino Distribution Center offered a per-
case cost lower than the Chino Distribution Center per-case cost. Table 6
shows some specific examples where competition may have been restricted
based on our cost estimate.




                                              15
Distribution   of D&tilled Spirits




       Norfolk Distribution    Center.  NEXCOM similarly restricted commercial
       distributor competition at the Norfolk Distribution Center. The Norfolk
       Distribution Center per-case shipping and handling cost was $5.21 for 1996.
       Distributor pricing surveys for 67 of the 333 surveyed distilled-spirit line items
       in the distribution center showed that at least one distributor in the region
       serviced by the Norfolk Distribution Center offered a lower per-case cost.
       Table 7 shows some specific examples where competition may have been
       restricted.

       As shown in Table 6 and Table 7, NJZXCOM did not always make the best
       business decision because it was unable to fairly and accurately evaluate offers
       from commercial distributors.




                                            16
                                                               Distribution of Distilled Spirits



                          Table 7, :Norfdk R&on 19% Per-Case Costs

                                                                    ,   Cost t&toted by
                                                                         commefcial
              Brand:            .Eipe             COM Norfolk Cost*       Didiiiutor
                                         :
            J&B Got+            750’              .y$ 136.21               $131-.10

                          9      SC? :                67.46                  56.42
            Brothers
            Bra&y          .. ... ..

            ‘Pepprrmint         750          :        68.21                  64.65
            SchnopPS

            Malibu              750                   95.21                  85.46
            Rum

            CXliVaS             1.75’                 210.66                208.80
            Regal

           750 milliliter bottle.
           50 milliliter bottle.
           1.75 liter bottle.
           Based on our computations.



Restrictions on NEXCOM Store Managers. For products stored at
distribution centers, NEXCOM required military store managers to purchase
distilled spirits only from its distribution centers, even if other, lower cost
sources were available. Competition was restricted because NEXCOM store
managers were unable to take advantage of lower prices offered by commercial
distributors.

In 1996, a distilled spirits buyer at NEXCOM headquarters centrally managed
distilled spirits for military stores serviced by the Chino, Great Lakes, and
Norfolk distribution centers. The distilled spirits buyer made the decision
whether distilled spirits should be purchased directly from a commercial distiller
and stored in the distribution centers or purchased from a commercial
distributor. The buyer did not have a fair method for evaluating offers from
commercial distributors and made purchasing decisions based on experience and
historical sales volume. The IWXCOM distilled spirits buyer also authorized
the military store manager to buy items not stored in NEXCOM distribution
centers.

Jacksonville Distribution Center. During 1996, distilled-spirit purchases were
managed by a distilled spirits buyer located in the Jacksonville region. Unlike
the distilled-spirit purchases made by the NEXCOM headquarters buyer, the


                                                 17
Distribution   of Distiied   Spirits



       Jacksonville buyer purchased distilled spirits entirely from commercial
       distributors. The distilled spirits were then delivered to and distributed by the
       NEXCOM Jacksonville Distribution Center. The buyer, without doing an
       economic analysis, believed this was the most economical method of purchasing
       and distributing distilled spirits. We did not evaluate the economic validity of
       the Jacksonville buyer’s purchasing decisions because NEXCOM plans to
       manage distilled-spirit purchases through its headquarters buying office in 1998.



Service Levels
       The difference in service levels between commercial distributors and the
       military distribution centers should be a consideration in the overall purchasing
       decision. Commercial distributors sometimes provide a variety of services to
       military stores in addition to warehousing and delivering the product. Services
       include stocking the product on the shelves, removing refuse, and maintaining
       sales area displays. Those services are not provided when distilled spirits are
       obtained from an AAFES or NEXCOM distribution center. Military store
       employees must unload the delivery truck, stock the shelves, and maintain the
       sales floor.

        Product availability (in-stock rates) and flexible delivery schedules are also
        integral components of a service level. Low in-stock rates can result in
        customer dissatisfaction and lost sales. For distilled spirits, AAFES distribution
        centers reported in-stock rates of between 79 percent and 83 percent, and
        NEXCOM distribution centers reported in-stock rates of between 92 percent and
        97 percent. Commercial distributors stated that their in-stock rates exceeded
        98.2 percent. We did not validate the in-stock rates for AAFES and NEXCOM
        distribution centers or commercial distributors.

        Commercial distributors can provide flexible and timely delivery of distilled
        spirits that is not always available from AAFES or NEXCOM distribution
        centers. When military stores sell out of a popular brand of distilled spirits
        received from a distribution center, the military store manager must wait until
        the next regular scheduled delivery, which can vary depending on the military
        store’s size and location. Commercial distributors, in some cases, may be able
        to deliver distilled spirits the same day the order is placed.




                                            18
     We were not able to quantify the monetary value that service levels add to
     commercial distributor case costs. In our opinion, their service level can
     provide a benefit that should be considered in the purchase of distilled spirits.
     Some of the benefits may include:

            l   less military store employee time spent stocking and maintaining
                sales area shelving and displays;

            0   improved inventory management due to detailed and frequent review
                of commercial distributor-supplied items;

            l   higher in-stock rates for military stores serviced more than twice a
                week; and

            l   lower inventory requirements at military stores because stock levels
                decrease as the replenishment cycle shortens.

     Purchasing decisions should always consider service levels, especially when
     AAFES and NEXCOM distribution center prices are close to commercial
     distributor prices.



Best Value Purchasing
     The distribution of distilled spirits has been an issue since the late 1980s when
     AAFES and NEXCOM began purchasing distilled spirits from distillers for
     internal distribution. AAFES and NEXCOM are required by statute to purchase
     distilled spirits from the most economical source, price and other factors
     considered. Commercial distributors have expressed concerns that the military
     retail system understated distilled-spirit distribution costs and that the costs and
     benefits of buying from commercial distillers versus commercial distributors
     were not determined.

    DOD has acquisition reform goals that include buying better products, obtaining
    the products in less time, and obtaining products at less cost. These are
    interdependent goals, meaning a store manager could pay a higher per-case cost
    to a distributor to obtain faster delivery or better quality of service. Although
    these goals were not intended for the MWR arena, we believe they are relevant.
    When AAFES and NEXCOM can purchase distilled spirits from distributors
    offering advantages in availability, price, and service, they should be able to do
    so. Although the distribution centers provide savings in the aggregate,
    additional efficiencies may be possible by allowing commercial distributors to
    fairly compete for business on individual products. When commercial




                                          19
Distribution of Distilled Spirits



       distributors can provide an item at a better price than the distribution center, it
       allows the military store to earn a higher profit and thereby increase the benefits
       to active-duty MWR programs.

       The value of military stores to active-duty and retired personnel, and their
       families, depends on convenience, service, product selection, and price. In our
       opinion, military store managers or other purchasing authorities should have the
       opportunity to make the business decisions that will provide the maximum value
       to their patrons. NEXCOM expressed concern that such authority should not be
       given to a store manager. Although we believe the store manager is the
       appropriate location of such authority, our main concern is that best business
       decisions be made that allow for open competition. As a minimum, the store
       manager should be provided meet or beat price lists even if the store manager is
       not allowed to make purchasing decisions. Store managers are in the best
       position to identify opportunities for savings because of their close proximity to
       commercial distributors.



Recommendations            and Management            Comments
       We recommend that the Assistant Secretary of Defense (Force Management
       Policy) establish policy for the Army and Air Force Exchange Service and
       the Navy Exchange Service Command to:

                1. Annually determine and disseminate to all military store
       managers a fair and accurate per-case shipping and handling cost that
       competitors will have to “meet or beat.” The cost should he based on all
       cost components of distribution center operations attributable to distiied
       spirits.

               2. Require military store managers or other purchasing authorities
       to use the per-case shipping and handling cost to competitively purchase
       distiied spirits using best business decisions.

       Management Comments. The Executive Director, MWR and Resale
       Activities, Office of the ASD(FMP), concurred, stating that policy
       implementing both recommendations will be established by August 1, 1998.




                                            20
Part II - Additional Information
Appendix A. Audit Process



    Work Performed. We examined 1996 information relating to the purchase,
    storage, and distribution of distilled spirits. We obtained information from
    AAFES and NEXCOM that related to headquarters, distribution centers, and
    military store operations. We also obtained information from state governments
    and civilian distributors and obtained AAFES and NEXCOM distilled-spirit
    prices for items purchased directly from distillers and distributors.

    We also obtained information from AAFES and NEXCOM that showed the
    number of cases of distilled spirits that they distributed in 1996. We compared
    that information to the operating costs that were attributable to the distribution
    of distilled spirits to determine AAFES and NEXCOM distilled-spirit shipping
    and handling costs.

    Audit Period and Standards. This economy and efficiency audit was
    performed from January through October 1997 in accordance with auditing
    standards issued by the Comptroller General of the United States as
    implemented by the Inspector General, DOD. The audit did not rely on
    statistical sampling.



Methodology
    Use of Computer-Processed Data. We relied on computer-processed data
    contained in AAFES and NEXCOM databases. We relied on cost information
    from the AAFES automated financial systems to determine the actual cost of
    distributing a case of distilled spirits for 1996. We also relied on automated
    cost information from NEXCOM distribution centers to determine the extent of
    their distilled-spirit purchases and the related storage and transportation costs.
    We did not verify the accuracy of the computer-processed data for the
    automated systems. We worked closely with AAFES and NEXCOM personnel
    in analyzing the data and nothing came to our attention during the audit that
    caused us to doubt the reliability of the computer-processed data.

    Diiilled-Spirit Per-Case Shipping and Handling Cost. To determine
    AAFES and NEXCOM distilled-spirit per-case shipping and handling costs, we
    obtained 1996 financial reports for their distribution centers. We allocated a
    portion of the total cost of operating the distribution centers to distilled-spirit
    distribution operations. For AAFES distribution centers, we proportionally


                                         22
                                                      Appendix A. Audit Process


allocated total operating costs to the cases of distilled spirits issued. To this
case cost, we added inventory carrying costs using the average monthly ending
inventory for 1996 multiplied by the AAFES short-term borrowing rate.

NEXCOM tracks the dollar amounts of issues and not the number of cases
issued. We allocated operating costs based on the proportion of the dollar value
of distilled spirits issued at cost to the total dollar value of all issues. We then
divided the costs attributable to distilled spirits by the cases of distilled spirits
issued by each distribution center. Because NEXCOM did not record the total
number of cases issued per year by distribution center, we derived the number
of distilled-spirit cases issued from NEXCOM merchandising reports and
distribution center ordering reports. To this case cost, we added inventory
carrying costs using the average monthly ending inventory for 1996 multiplied
by the NEXCOM short-term borrowing rate. This methodology may overstate
the shipping and handling costs attributable to distilled spirits, because the
average case cost for distilled spirits is higher than the average cost for all
commodity groups in the distribution center.

Commercial Distributor Case Prices. To determine a case cost for distilled
spirits delivered by a distributor, we developed a survey of 592 line items. The
line items represented brands and sizes of distilled spirits distributed through the
distribution centers during 1996. The surveys were sent to commercial
distributors and distributor representatives in the states shown in the following
table.


                         Commercial Distributor R@ Surveys
                                                      surveys
                          &&                         B&x&%!

                           Arimoa                           1
                           California                       1
                           colorado
                           Fhida                            ;
                           Georgia
                          -Illinois                    .;
                                                            3
                           &MlCky                           5
                           Maryland                         2
                           Nevada                           I
                          .Rhode Island                     1
                           South Cafalina                   2
                           T8XaS                            5
                           Virginia                         2.

                          Total                        34




                                        23
Appendix A. Audit Process


      We asked the distributors to provide us a delivered case cost for the products
      they represented if they were to supply the DOD military stores in their area
      with those products. We also asked them to outline the services that they could
      provide to the DOD retail outlets. We did not attempt to validate the case costs
      provided by the distributors. The survey costs provided a point of comparison
      for a given point in time, and should not be used for future purchasing
      decisions.

      From the pricing survey responses, we determined a distributor case cost for
      each line item in the survey. When there were three or more distributor
      responses in a region serviced by an exchange distribution center, we used the
      midpoint case cost as the regional distributor case cost. If we did not have
      enough survey responses to obtain a regional price, we determined a national
      midpoint price from all of the 34 price surveys, If there were an even number
      of pricing survey responses for a line item, the lower price was used.

      Contacts During the Audit.        We visited or contacted individuals and
      organizations within DOD, private companies, and state governments relating to
      the distribution of distilled spirits. Further details are available on request.




                                          24
Appendix B. Summary of Prior Coverage

     No government reports directly relating to the distribution of distilled spirits in
     DOD were published in the last 5 years. However, the General Accounting
     Office (GAO) issued a report in 1991 and the Inspector General, DOD, issued a
     report relating to alcohol misuse in DOD. In addition, the exchange services
     contracted with the accounting firm Deloitte & Touche LLP to review distilled-
     spirit distribution in AAFES, NEXCOM, and the Marine Corps. The Deloitte
     & Touche LLP reports were not audits and the reviews were limited to specific
     distribution centers.



General Accounting Office
     General Accounting Office Report No. NSIAD-91-77, ccMilitary Exchanges:
     Exchange Service Management of Army and Air Force Package Stores,”
     February 26, 1991. This report states that AAFES did not conduct an
     economic analysis before deciding to store and deliver distilled spirits through
     its distribution network, and therefore did not determine whether that decision
     was cost-effective and efficient. In addition, GAO stated that the AAFES cost
     estimate of $2.15 per case (adjusted to $2.40 in 1992), based on an economic
     analysis for a specific vendor, was inaccurate for that vendor and inappropriate
     for evaluating the distribution offers of other vendors. GAO did not make any
     recommendations, but stated that AAFES planned to revise and update the
     economic analysis model, and with the revised model AAFES could develop a
     reliable per-case estimate to equitably evaluate each distributor’s offer.



Deloitte & Touche        LLP
     Deloitte & Touche LLP conducted three separate studies of the exchange
     services’ buying and distribution systems for distilled spirits in connection with
     contract NNA250-95-D-002, issued by NEXCOM. The studies did not
     constitute an audit made in accordance with generally accepted auditing
     standards, and Deloitte & Touche LLP, therefore, did not express an opinion on
     any of the accounts or items referred to in any of the reports. Deloitte &
     Touche LLP only performed procedures and inquiries requested by the military
     exchange systems and, therefore, would not make a representation of the
     sufficiency of the procedures and inquiries conducted.

     “Army & Air Force Exchange Service Review of Standards atid Benchmark
     Costs For Distilled Spirits Distribution,” March 3,1995. The report states
     that AAFES made the correct economic business decision at its distribution


                                         25
Appendix   B. Summary    of Prior Coverage


      center in Newport News, Virginia, with respect to selecting the lowest cost
      channel of distribution for distilled spirits. The analysis was limited to
      understanding how the engineering standard for handling distilled spirits, at the
      Newport News Distribution Center, was converted to and reflected in
      benchmark costs. The benchmark costs were used to determine the most
      economical purchasing choice between a distiller and a distributor.

      “Navy Exchange Service Command Distilled Spirits Procurement Process
      Review,” March 3, 1995. The report states that it appeared that NEXCOM at
      the Norfolk Distribution Center purchased distilled spirits in the most cost-
      effective and efficient manner. The review found that NEXCOM earned
      approximately 2 percent more gross margin on the distilled spirits and wine
      purchased from distillers versus distributors. The report further states that if the
      average gross margin for wine is lower than distilled spirits, then the gross
      margin for distilled spirits purchased from distributors will be proportionately
      higher and any margin benefit attributable to distillers will be reduced. Note:
      The MZXCOMInstruction1700.60, “PackagedAlcoholic Beverage Sales At
      Navy Installations,” March 15, 1996, provides a pricing policy thatshows
      distilled spirits witha 5 percent higher markupthan on wine.

      “US Marine Corps Distiied Spirits Procurement Process Review,”
      March 3,1995. The Marine Corps does not operate distribution centers. It
      warehouses distilled spiritsgurchased directly from AAFES or NEXCOM
      distribution centers or commercial distillers. Deloitte & Touche LLP limited its
      review to Camp Pendleton and El Toro, California. This is significant because
      California does not exempt the Marine Corps from the state liquor tax on
      in-state distilled-spirit purchases. The report states, primarily because of
      taxation, the Marine Corps at Camp Pendleton and El Toro made the correct
      purchasing decision when buying directly from the distiller or from NFXCOM.
      The report further states that the distributors provided a significant benefit with
      high-quality services. IIowever, the benefits of the services were not included
      in the quantitative results.




                                           26
Appendix C. Inspector General, DOD, Analysis
of the DOD Report to Congress on the
Distribution of Distilled Spirits

   The National Defense Authorization Act for FY 1997 required DOD to compile
   and submit information regarding the purchasing and distribution of distilled
   spirits. The Act states:

               Section 333 of the National Defense Authorization Act for Fiscal Year
               1996 (Public Law 104-106) required the computation of the full cost to
               the military exchanges for the distribution of distilled spirits, including
               the costs associated with management, logistics, administration,
               depreciation and utilities. The purpose of this provision was to ensure
               that distilled spirits are distributed in the most economical manner.
               The committee is interested in the extent to which this requirement
               has resulted in a change in distribution methods. Therefore, the
               committee directs the Secretary of Defense to report by December 31,
               1996, on the extent to which distilled spirits sold on military
               installations are distributed through the exchange distribution system
               or through private distributors, and any costs savings which have
               resulted from this requirement. Additionally, the committee directs
               the Secretary of Defense, in the same report, to discuss the advantages
               and disadvantages of requiring purchases and delivery of distilled
               spirits, for resale on a military installation located in the United States,
               to be made from a source within the state in which the military
               installation is located.

   Report to the Committee         on National Security,   On December 24, 1996,
   DOD submitted the “Report on the Distribution of Distilled Spirits” to the
   Committee on National Security. The Report states that after consideration of
   the full costs for distributing distilled spirits, no change resulted in the
   purchasing and distribution practices for AAFES and NEXCOM. The Report
   concludes that AAFES and NEXCOM provided the most efficient and
   cost-effective distribution of distilled spirits.

   The Report findings and conclusions were based on submissions from AAFES
   and NEXCOM. AAFES submitted a Fact Paper that focused on its decision
   criteria for determining the source for purchasing distilled spirits. NEXCOM
   submitted a report that projected savings of $9.6 million from purchasing
   distilled spirits directly from a distiller instead of a distributor.

   Diiilled-Spirit    Distribution Savings. Although we agree that in the aggregate
    DOD is purchasing distilled spirits in the most economical manner, AAFES did
    not determine the savings resulting from the distribution of distilled spirits
    through its distribution centers. NEXCOM prepared a comprehensive savings
    analysis that contained significant mathematical errors.


                                              27
Appendix C. Inspector General, DOD, Analysis of the DOD Report to Congress on
the Distribution of Distilled Spirits

              .AAF’ES. The Report discusses the AAFES decision criteria that was
      used to establish the benchmark distribution cost of $2.40 a case. The Report
      states that by using the benchmark price, AAFES was assured of obtaining the
      lowest cost available every time a military store order was placed. However,
      the Report does not provide information regarding the cost savings obtained
      from using the AAFFB benchmark price.

             NEXCOM. NEXCOM projected a net savings of $9.6 million in 1996
      by purchasing distilled spirits directly from distillers and distributing the
      products through NEXCOM distribution centers. The Report includes the
      NEXCOM analysis used to support the projected 1996 savings.

      Inspector General, DOD, Comments. Although NEXCOM complied with the
      Act, we found that it overstated savings by $9.4 million because of significant
      mathematical errors and incomplete information.

      Distributor Case Cost. To determine if AAFES and NEXCOM purchased
      distilled spirits from the most economical source, we analyzed the case costs of
      distilled spirits issued in 1996. We determined the case cost savings by
      comparing the distiller case cost plus per-case shipping and handling costs to the
      delivered case cost from a distributor. After obtaining the case cost savings, we
      calculated the savings for each product line item by multiplying the case cost
      savings by the number of cases issued from the distribution center. We added
      the savings for each product line item to obtain the total savings. After
      deducting the AAFES and NEXCOM case cost of purchasing and distributing
      distilled spirits, we were able to determine the case cost savings, if any.
      Appendix A contains a discussion of the methodology used in obtaining and
      analyzing case costs.

      We determined that AAFES saved $3,109,623 by purchasing distilled spirits
      from distillers in 1996. NEXCOM saved $161,254. Table C-l shows the
      results for AAFES and NEXCOM distribution centers.




                                          28
Appendix   C. Inspector General, DOD, Analysis of the DOD Report to Congress on
                                                     the Distribution       of Distilled Spirits


                     Table C-l. Savings Available to DODby Ptwclpsiq        Distilied
                           Spirits Directly from ChmmwcWDiiUtOti
                                                         AAFES    savings
                                                                       (Loss)
                                MFES                     Frqt Direct Pitrchise
                     Distribution Center L.ocatioq        of Distilled S&its

                      .AUtkt*                             .I;. ,$ 4331660
                      Nswpofi News                               1,033,?36
                      ‘Gakhnd                                      224,094
                      ~Waco                                      l&,113


                         To&I                                 $3,109,623


                                                       NEXCOIb4 Savings (Loss)
                               NEXCOM                    Ptom Direct Purchase
                     Bistribution Center Location          of Distilled Skits


                      Chill0                                     $      3,443
                      GreatLakes                                       WW
                      Jacksonville                                   (256,926)
                      Norfolk                                        420,617


                         Total                                   s i61,254



      Corrected NEXCOM Savings Analysis.             We reconciled the $9.6 million
      savings that NEXCOM projected in their submission to DOD to our recomputed
      savings of $161,000. The majority of the difference, $8.4 million, is
      attributable to mathematical errors. For several product line items, NEXCOM
      calculated the case cost savings obtained from purchasing a case of distilled
      spirits from a distiller versus a distributor and multiplied the savings by every
      bottle instead of every ca.re. The remaining $1 million difference occurred
      because NEXCOM did not include all product line items in its savings analysis.
      Additionally, because of a timing difference, NEXCOM annualized 8 months of
      savings over 12 months; NEXCOM had completed its operating year when we
      made our calculations. Table C-2 shows the results of our reconciliation.




                                            29
Appendix C. Inspector General, DOD, Analysis of the DOD Report to Congress on
the Distribution of Distiied Spirits


            Table C-2. Analysk ot NEXCOMSavings from Ptn&shg                  Distilled Spirits
                                  fbm Chmnerdal Distillers

                  I
            Annabed      tales of distill& spiriis                               $1932,700


                       ComvutationS
                       ..       .     :
                       ..
          ::Td     q&&++            .&vings                                      s   ~0,721,d29
                            :
                         .:
            I,erea: Mjustmenis for ipfentory carqing cost,
           iddititi    iiaedling cost, and buying expeiisx                           (1,121,737)
                             :
            ?iJ3XCOMcamputedswings~                                              $ 9,599$292


         bsoector General. DOD. Comxxttations


           Less Mathematicaler~~~                                                    @,404,466)

           Less: other difkences’                                                    (lJI33.572)


                 corrected savhgs                                                $     161,254


         ‘Otlwrdiff eretw%sinclude offsets finm distilled-spirit line item variatidns in the
         J%XCGM analysis and the effect of annualizing savings and adjustments over a
          1Zmonth period.




      Our analysis is not based on a statistical sample and is only intended to convey
      the 1996 savings figure for AAFES and NEXCOM distilled-spirit distribution
      center operations. We applied midpoint prices for line items from pricing
      surveys that we received from 34 distributors in 14 states. Use of the pricing
      information provided an indication that savings may be achievable from
      distribution center operations. Our results should not be used as a basis for
      making distilled-spirit purchasing decisions.




                                                     30
Appendix D. Variables Affecting Case
Cost Determinations

   Several factors can impact distribution case costs for distilled spirits discussed in
   the finding. The factors that we encountered during the audit are only
   representative of the costs for 1996. Many factors enter into the calculation of
   case costs and vary depending on internal and external influences. In that
   regard, distilled-spirit case cost determinations must be continually updated as
   consumer preferences, marketing, and other factors change. Some of the
   factors that can impact distilled-spirit purchasing decisions are discussed below.

   Automation. Automated conveyer systems are used to move merchandise to
   and from storage points in the distribution centers. Initial installation and
   startup costs for automated conveyer systems are high, but usually reduce case
   handling costs in the future.

   Backhaul. Distribution centers receive merchandise from commercial vendors
   based on orders from military retail system buyers. Some of the merchandise is
   delivered directly to the military store, while the bulk of it, such as distilled
   spirits, is delivered to the distribution center. A truck departing a distribution
   center on a delivery run may deliver merchandise to as many as 30 military
   stores. To avoid returning to the distribution center with an empty trailer,
   AAFES developed a comprehensive backhauling program.

   The AAFES backhauling program reduces the number of times its trucks return
   to the distribution center partially loaded or without a payload. Backhauling
   involves stopping at a vendor’s location on a return trip and picking up
   merchandise that is destined for the distribution center. This management
   initiative ensures more efficient use of the AAFES-owned fleet of tractors and
   trailers, and ultimately reduces the per-case shipping and handling cost at each
   distribution center. Backhauling reduces shipping charges and is a cost
   avoidance that can reduce distilled-spirit case handling and storage costs.
   AAFES reported a cost avoidance of about $15 million through its backhauling
   efforts in 1996.

   Construction of New Storage Space. NEXCOM completed a move to a new
   facility in 1996 at Chino. AAFES is in the process of building a new addition
   at the distribution center in Newport News, and is building new space and
   renovating existing space in Atlanta. Each of these initiatives can impact the
   case shipping and handling costs for distilled spirits.

   Level of Inventory. The level of inventory maintained in a distribution center
   affects inventory carrying costs. An inventory of sufficient size and diversity



                                        31
Appendix D. Variables Affecting Case Cost Determinations


      for efficient operations must be maintained, but the size should not be of such
      magnitude as to tie up funds that could be put to a better use. The level of
      inventory maintained also determines the amount of warehousing space
      required.

      Transportation.    The location of a distribution center affects transportation
      costs because the costs are based on distance. Most distillers are located closer
      to the East Coast, which makes shipping costs higher on the West Coast.

      Volume.     Distribution costs are spread over the total number of general
      merchandise and distilled-spirit cases distributed. The greater number of cases
      distributed, the lower the per-case cost.




                                           32
Appendix E. Analysis of AAFES Case
Cost Components

   Title 10, United States Code, Section 2488, “Nonappropriated Fund
   Instrumentalities: Purchase of Alcoholic Beverages,” requires the use of all
   cost components such as administration, depreciation, and inventory carrying
   costs in determining the lowest cost source for obtaining distilled spirits. The
   use of all cost components, or “full costing,” denotes the set of all costs that
   encompass all expenses related to distilled-spirit distribution. Full costing
   should be used when deciding on selling prices and on which products to store
   in distribution centers or to obtain from commercial warehouses or vendors.

   The table on the following page shows full costing attributable to distilled spirits
   for AAFES distribution centers during 1996.




                                        33
Appendix     E. Analysis of AAFES Case Cost Components




                                    1996 Case Cost Comp01~1tsfor Distilled Spirits
                                                                         Distribution Centers
                                        ;llllspte’-                                                            --.         :

                                                $ .33                 $ -62                -.$ -19        .:     $ .4s
                                    :




           .Traqortation   Costs’                     ,78                -31                    34                   .62


              .TotaIPer-Case Cost               $3.10                $3.26                  $4.06                $3.34

           1hchdea dqweciation expenses for the distribution center, includipg conveyer systems and
           fork lifls as well as automobiles, tractors, and trailers.

           2 Indudes the cost of capital invested in inventory. These costs were calculated Using the
           average interest rate incurred by AAFJZS in 1996.

           3 fndudea all the other expensea of operating the distribution center such as advertising, data
           p-ing,       insurance, postage, supplies, travel, and utilities. The AAi3Es headquarters
           logistics and safety snd security operations are allocated to the distribution ceoters. For three
           of the four distribution centers, the expenses are offset by inc~tie from backhziuling
           merchandise from manufacturers and distillers to AAFES distribution-centers. The expenses
           ark&o offset ‘from distribution allowances for bulk purchases and reimbursements from
           loading containerized vans for oversew shipments.

           ’ Includhspayroll   co&, fringe.hefits,          and training.

           ’ Includes both transportation of iave&y              to the distribution center and transportation to the
           stores or to other distribution centers.




                                                            34
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Force Management Policy)
   Executive Director of Morale, Welfare, and Recreation and Resale Activities
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Superintendent, Naval Post Graduate School
Commander, Navy Exchange Service Command
Director, Marine Corps Morale, Welfare and Recreation Support Activity



Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency
Commander, Army and Air Force Exchange Service




                                          35
Appendix F. Report Distribution


Non-Defense Federal Organizations                  and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      TechnicaI Information Center
   Health, Education, and Human Services

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                           36
Part III - Management   Comments
Office of the Assistant Secretary of Defense
(Force Management Policy) Comments


                   OFFICE     OF THE     ASSISTANT   SECRETARY               OF DEFENSE
                                         *ooo OKrcNsc ?ENTAooN
                                       WASHINOTON,       D.C.   ¶0¶01-4000




       MBMORMJDUMFORASSI!3TANTINSF’ECl-ORG-                                  FOR AUDITING

       SUBJECT: Draft Audit Rqxxt on the Economk Distribution of Distilkd Spirits Within
                DaD (Project No. 7LF-5020 drttd Februsry 17.1998)


               ThisllsspodstoyourtvxpestforvkwsMd comtwnts on subject tepott. We
       nrpparboth~~o~mdeinthednftrrport~dtlldoncsenregitsrhrtwill
       result in the procurement and distribution of distilled spirits at the lowest possible cost and
       of&&g maximum -ties               for lcc8l competition.

              MY specific comrmmts on the recommendations contained in the report follow:

       Ution              1. Establish policy for the Army and Air Force Exchange Service and
       the Navy Ercbange Service Command to annually determine and disseminate to all
       military Starr mUUgers fair 8nd accurate per-case shipping cost that competitors will ti
       to “msct or beat”.Tbc cost should be based on all cost components of diswibutioo center
       operations ataihutabk to distilled spirits.

               Response: Caacur. The apprtment will establish a policy, by August 1,1998,
       rquiring the exchange services to comply with this recommendation. By adopting this
       policy the Dqrtment will ensure that MFES and NBXCOM procure and distribute
       distilkd spirits 8t the lowest cost.

       Utioa             2. Establish policy for the Army and Air Force Exchange Service and
       the Navy Exchange service Command to requiremilitnty store managers or other
       plrchumg authorities to use the per-case shipping and handliog cost to competitively
       pucbrse distilkd spirits using best business decisions.

               Response Concur. The Department will establish a policy by August I, K98,
       lcquiring the exchange “r”‘““” to impkment procedules that eliminate my restriction to
       coanp&ion by comnuz4       distributorx

              We   qpnxiue   your asdance     in revie



                             Execu




                                                     38
Audit Team Members

This report was prepared by the Readiness and Logistics Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD.

Shelton R. Young
Raymond D. Kidd
Michael A. Joseph
Timothy J. Tonkovic
Suzanne M. Hutcherson
Carolyn A. Swift
Eva M. Zahn
